 OFFICE OF AUDIT
 REGION 8
 DENVER, CO




     Utah Housing Corporation, West Valley City, UT

                   Mortgage Servicing




2012-DE-1005                              SEPTEMBER 27, 2012
                                                      U.S. DEPARTMENT OF
                                   HOUSING AND URBAN DEVELOPMENT
                                               OFFICE OF INSPECTOR GENERAL


                                                                      Issue Date: September 27, 2012

                                                                     Audit Report Number: 2012-DE-1005




TO:            Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU


FROM:          Ronald J. Hosking, Regional Inspector General for Audit, Denver Region, 8AGA

SUBJECT:       A Hotline Complaint About Utah Housing Corporation, West Valley City, UT,
                 Mortgage Servicing Was Not Substantiated


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the hotline complaint about Utah Housing
Corporation’s mortgage servicing of Federal Housing Administration (FHA)-insured mortgages
and corresponding downpayment assistance mortgages.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5872.




                                                Office of Audit Region 8
                                    1670 Broadway, 24th Floor, Denver, CO 80202
                                      Phone (303) 672-5452, Fax (303) 672-5006
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                         September 27, 2012
                                         A Hotline Complaint About Utah Housing Corporation,
                                         West Valley City, UT, Mortgage Servicing Was Not
                                         Substantiated



Highlights
Audit Report 2012-DE-1005


 What We Audited and Why                  What We Found

We reviewed the allegations contained    We found no evidence to substantiate the allegations.
in a hotline complaint of the Utah       We found no evidence that the Corporation
Housing Corporation, West Valley City,   commingled funds from the first FHA mortgages and
UT, to determine whether the             the second downpayment assistance mortgages. We
allegations that the Corporation         also found no evidence that the Corporation serviced
commingled funds and serviced second     second mortgages before the first FHA mortgages by
mortgages before the first FHA           using first mortgage payments to pay the second
mortgages could be substantiated.        mortgage. Therefore, the Corporation properly
                                         serviced the mortgages.

 What We Recommend

This report contains no formal
recommendations, and no further action
is necessary.
                           TABLE OF CONTENTS
Background and Objective                                                          3

Results of Audit
      A Hotline Complaint About Utah Housing Corporation, West Valley City, UT,   4
      Regarding the Commingling of Funds and Servicing Second Mortgages Before
      the First FHA Mortgages, Was Unsubstantiated

Scope and Methodology                                                             6

Internal Controls                                                                 7

Appendix
A.    Auditee Comments                                                            8
                      BACKGROUND AND OBJECTIVE

The Utah Legislature created the Utah Housing Corporation, previously known as Utah Housing
Finance Agency, as a public corporation in 1975. The Corporation had authority to issue bonds
and other obligations and to purchase mortgage loans in furtherance of its purpose of providing
safe and sanitary housing for persons of limited income residing in the State of Utah.

The U.S. Department of Housing and Urban Development’s (HUD) Office of Housing oversaw
the Federal Housing Administration (FHA) and regulated housing industry business. Congress
created FHA in 1934, and it became a part of HUD’s Office of Housing in 1965. FHA provided
mortgage insurance on loans made by FHA-approved lenders in the United States and insured
mortgages on single-family homes and other properties.

As of March 31, 2012, HUD’s Neighborhood Watch data showed that the Corporation had
10,377 active FHA-insured mortgages with a total original loan amount of more than $1.3
billion, which was 98.7 percent of its loans. For 98 percent of its FHA mortgages, the
Corporation provided the borrowers with downpayment assistance mortgages. It funded the
downpayment assistance mortgages without HUD insurance or funding. The FHA mortgage was
the senior or first mortgage, and the downpayment assistance mortgage was the subordinate or
second mortgage.

The Office of Inspector General (OIG) received a confidential hotline complaint and conducted
this audit to determine whether the complaint could be substantiated. The complainant alleged
that the Corporation commingled funds and serviced the financial interest of the second
mortgages before the first FHA mortgages and that the Corporation did not apply money paid by
the customer to the first mortgage but, rather, applied it to the second mortgage. The
complainant stated that this practice left the FHA mortgage in default and possible foreclosure.

Our objective was to determine whether the allegation that Utah Housing Corporation
commingled funds and serviced second mortgages before the first FHA mortgages could be
substantiated.




                                               3
                                RESULTS OF AUDIT


A Hotline Complaint About Utah Housing Corporation, West Valley
City, UT, Regarding the Commingling of Funds and Servicing Second
Mortgages Before the First FHA Mortgages, Was Unsubstantiated

We reviewed the allegations contained in a hotline complaint about the Utah Housing
Corporation, regarding the commingling of funds and servicing second mortgages before the first
FHA mortgages. We found no evidence to substantiate the allegations. The significant
allegations made in the complaint and the results of our review of those allegations are detailed
as follows:

   •   The complainant alleged that the Corporation commingled funds from the first FHA
       mortgages and the second downpayment assistance mortgages. We found no evidence to
       substantiate this allegation. We reviewed the loan-level documents and accounting records
       for 20 of the 352 applicable FHA first mortgages and the associated second mortgages. The
       loan-level documents showed that each mortgage had a distinct mortgage number and
       payments were applied directly to the appropriate mortgages. The accounting records
       showed no indications of the intermingling of funds between the first mortgages and
       corresponding second mortgages.

   •   The complainant alleged that the Corporation serviced second mortgages before the first
       FHA mortgages by using first mortgage payments to pay the second mortgage. The
       complainant believed that second mortgage payments should be applied to corresponding
       delinquent first mortgages. We found no evidence to substantiate this allegation. We
       reviewed the loan-level documents and accounting records for 20 of the 352 applicable FHA
       first mortgages and the associated second mortgages. The review of loan servicing
       documents for 20 borrowers showed proper servicing of the first and second mortgages.
       The review of accounting records for the 20 loans sampled showed that the payments were
       properly recorded to the first and second mortgages.

       The Corporation properly processed the first and second mortgages as two separate and
       independent legal mortgages and correctly serviced the mortgage payments. The
       Corporation was obligated to apply the loan payments according to borrower instructions.

       The Corporation’s procedures were supported by applicable principles of law. According
       to principles of contract and commercial law adopted by the courts, two general maxims
       govern the application of payments made by a debtor to a creditor. One maxim provides
       that a debtor who owes multiple obligations to a creditor has the right to apply a payment
       toward a particular debt even if the creditor disagrees with the debtor’s application. The
       second maxim states that when a debtor fails to direct a payment to a specific debt, the
       creditor may apply the debtor’s payment to any one of several debts held against the

                                               4
    debtor. The creditor must make proper application of the proceeds in accordance with
    that direction. Therefore, the Corporation properly serviced the mortgages.

Recommendations

    This report contains no recommendations, and no further action is necessary.




                                             5
                        SCOPE AND METHODOLOGY

We performed our onsite audit work at the Corporation’s office at 2479 South Lake Park Boulevard,
West Valley City, UT, between April and May 2012. The audit generally covered the period
January 1, 2010, through March 31, 2012.

To accomplish our objective, we interviewed pertinent Corporation and HUD staff and reviewed

   •   Applicable Federal regulations, HUD requirements, and mortgage laws;
   •   The Corporation’s policies and procedures relating to mortgage servicing;
   •   The mortgage notes for the first FHA and second downpayment assistance mortgages;
   •   The Corporation’s payment and accounting records;
   •   The Corporation’s loan servicing records; and
   •   HUD’s servicing monitoring review and the Corporation’s responses to the findings.

We selected and reviewed a sample of the Corporation’s borrower records. Of the 352 FHA
mortgages that fit the parameters of our review, we selected a total of 20 using a random number
generator. We reviewed the servicing and accounting records for the first FHA mortgages and
the corresponding second downpayment assistance mortgages.

We did not rely on computer-processed data for our audit purposes. We traced or verified the
supporting documentation to draw our conclusions about the allegation.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.




                                               6
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Controls over the recording of loan payments.
               •      Controls over the servicing of first and second mortgages.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of the Corporation’s payment processing- and loan servicing-
               related internal controls.




                                                 7
                 APPENDIX

Appendix A

             AUDITEE COMMENTS


                Auditee Comments




                       8
